      Report No. D-2013-090       June 7, 2013




   Improved Guidance Needed to Obtain Fair and
   Reasonable Prices for Sole-Source Spare Parts
Procured By the Defense Logistics Agency From The
                 Boeing Company




         This document contains information that
        may be exempt from mandatory disclosure
          under the Freedom of Information Act.
                             FOR OFFICIAL USE ONLY




Additional Copies
To obtain additional copies of this report contact the Secondary Reports Distribution Unit
at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms
DAAP                          DLA Aviation Acquisition Procedures
DFARS                         Defense Federal Acquisition Regulation Supplement
DLA                           Defense Logistics Agency
EDA                           Electronic Document Access
FAR                           Federal Acquisition Regulation




                             FOR OFFICIAL USE ONLY
FOR OFFICIAL USE ONLY




FOR OFFICIAL USE ONLY
                            FOR OFFICIAL USE ONLY
Report No. DODIG-2013-090 (Project No. D2012-D000AT-0199.000)               June 7, 2013

               Results in Brief: Improved Guidance Needed
               to Obtain Fair and Reasonable Prices for
               Sole-Source Spare Parts Procured By the
               Defense Logistics Agency From
               The Boeing Company
                                                    officers did not conduct adequate contract
What We Did                                         oversight.
The objective of the audit was to determine
whether Defense Logistics Agency (DLA)              As a result, DLA Aviation paid approximately
Aviation obtained best value and purchased          $13.7 million in excess of fair and reasonable
sole-source spare parts at fair and reasonable      prices for 1,469 delivery orders. DLA Aviation
prices from The Boeing Company (Boeing).            also may have made payments in excess of the
We reviewed contract actions associated with        fair and reasonable price for an additional 20
SPM4A1-09-G-0004 and SPM400-02-D-9407               delivery orders. If prices are not corrected,
that were awarded to Boeing. Specifically, we       DLA Aviation will continue to overpay on
reviewed costs for 60 spare parts on 2,659          future sole-source spare parts procured from
delivery orders, valued at about $81.1 million,     Boeing on SPM4A1-09-G-0004 and
to determine if DLA Aviation received a fair        SPM400-02-D-9407.
and reasonable price.
                                                    What We Recommend
What We Found                                       We recommend the Director, DLA implement
DLA Aviation contracting officers did not           available options to recover from Boeing the
negotiate fair and reasonable prices on 1,469       overpayment of approximately $13.7 million;
delivery orders, valued at $27.2 million, thereby   renegotiate prices for overpaid parts; revise
not getting best value for the Government.          “DLA Aviation Acquisition Procedures” to
Pricing problems occurred because DLA               require contracting officers to obtain and review
Aviation contracting officers did not conduct a     contractor purchase orders histories when
fair and reasonable price analysis. In addition,    determining fair and reasonable prices for sole-
DLA Aviation guidance did not require               source acquisitions and complete periodic
contracting officers to:                            reviews of the contractor’s cost basis for spare
                                                    parts purchased multiple times on a long-term
                                                    contract; and conduct periodic evaluations of
   •   obtain and review contractor purchase
                                                    contract files for long-term contracts to verify
       order histories when determining fair
                                                    that the contractor maintained contract data.
       and reasonable prices, or to
   •   complete a subsequent review of pricing
       for spare parts after the parts were         Management Comments and
       initially placed on long-term contracts,     Our Response
       as allowed by the contract.                  Comments from the Director, Defense Logistics
                                                    Agency, Acquisition, were responsive and no
Furthermore, Boeing did not maintain complete       additional comments are required. Please see
cost and pricing data for 20 delivery orders,       the recommendations table on the back of this
valued at $3.4 million, because contracting         page.
                                     FOR OFFICIAL USE ONLY
                                                i
                        FOR OFFICIAL USE ONLY
Report No. DODIG-2013-090 (Project No. D2012-D000AT-0199.000)       June 7, 2013

Recommendations Table

         Management                 Recommendations         No Additional Comments
                                   Requiring Comment                  Required
Director, Defense Logistics                                1, 2, 3.a, 3.b, and 4
Agency




                              FOR OFFICIAL USE ONLY
                                         ii
                           FOR OFFICIAL USE ONLY



Table of Contents

Introduction                                                                  1

      Objectives                                                              1
      Background                                                              1
      Review of Internal Controls for DLA Aviation Sole-Source Spare Parts
             Procurement                                                      3

Finding. Defense Logistics Agency Aviation Did Not Negotiate Fair and
Reasonable Prices                                                             4

      Criteria on Price Reasonableness and Records Retention                  4
      Ineffective Negotiation for Fair and Reasonable Prices on Procured
              Spare Parts                                                     5
      Management Actions to Improve Internal Guidance                         7
      Maintaining Contractor Cost and Pricing Data                           13
      Management Actions by Boeing to Improve Document Retention             13
      Some Delivery Orders Were Fairly Priced                                14
      Conclusion                                                             14
      Recommendations, Management Comments, and Our Response                 15

Appendix

      Scope and Methodology                                                  18
             Use of Computer-Processed Data                                  19
             Use of Technical Assistance                                     20
             Prior Coverage                                                  20

Management Comments

      Defense Logistics Agency                                               21




                           FOR OFFICIAL USE ONLY
FOR OFFICIAL USE ONLY




FOR OFFICIAL USE ONLY
                                  FOR OFFICIAL USE ONLY



Introduction
Objectives
The objective of the audit was to determine whether the Defense Logistics Agency
(DLA) Aviation obtained best value 1 and purchased sole-source spare parts at fair and
reasonable prices from The Boeing Company (Boeing). See the Appendix for a
discussion of the scope and methodology and prior coverage related to the objective.

Background
DLA is DoD’s largest logistics combat support agency. DLA provides the Military
Services more than 84 percent of its spare parts. DLA is headquartered at Fort Belvoir,
Virginia, and has six primary-level field activities 2 that include DLA Aviation. DLA
Aviation is headquartered at Richmond, Virginia, and is the materiel manager for over
444,000 aviation spare parts. DLA Aviation manages spares for engines on fighters,
bombers, cargo-aircraft, and helicopters; airframe and landing gear parts; flight safety
equipment; and propeller systems. We reviewed contract actions associated with
SPM4A1-09-G-0004 and SPM400-02-D-9407 that were awarded to Boeing.

Boeing
Boeing is a large aerospace company that manufactures commercial jetliners and defense,
space, and security systems. Boeing is organized into two business units: Boeing
Commercial Airplanes and Boeing Defense, Space, and Security. Boeing Defense,
Space, and Security designs, produces, modifies, and supports fighters, bomber,
transports, rotocraft, aerial refuelers, missiles, munitions, and spacecraft for military,
civil, and commercial use.

SPM4A1-09-G-0004
On March 16, 2009, DLA Aviation awarded SPM4A1-09-G-0004 to Boeing for aviation
spare parts, components, assemblies, and subassemblies to support the B-1B, B-52, E-3,
KC-135, and Minuteman Missile programs. SPM4A1-09-G-0004 is a Basic Ordering
Agreement, with two options to extend the agreement to March 15, 2014. A Basic
Ordering Agreement is a written instrument of understanding that contains terms and
clauses applied to future orders. Each order is treated as a separate contract and includes
a description of supplies or services and methods for pricing, issuing, and delivering. As
a result, DLA Aviation issues a separate solicitation for each order. Boeing provides a
quote and DLA Aviation performs a stand-alone price determination for each order made
on the contract. As of June 27, 2012, DLA Aviation purchased nearly 3,400 spare parts
on SPM4A1-09-G-0004, valued at approximately $142.0 million.


1
  FAR 2.101, “Definitions,” May 18, 2012 defines best value as the expected outcome of an acquisition that
provides the greatest overall benefit in response to the requirement.
2
  DLA’s six primary-level field activities include Aviation, Land and Maritime, Troop Support, Energy,
Distribution, and Disposition Services.

                                  FOR OFFICIAL USE ONLY
                                            1
                             FOR OFFICIAL USE ONLY


SPM400-02-D-9407
On May 17, 2002, DLA Aviation awarded contract SP0400-02-D-9407 to Boeing for
aviation spare parts to support the B-52, B-2, E-3, KC-135, Minuteman, and Cruise
Missile programs. The contract number was later changed to SPM400-02-D-9407.
SPM400-02-D-9407 is a requirements-type contract that provides spare parts purchase
requirements for DLA Aviation with three options to extend the contract to
May 16, 2014. A requirements type contract fills actual purchase requirements of
Government activities for supplies or services during a specified contract period.
SPM400-02-D-9407 initially included 57 parts, with subsequent parts added to the
contract through contract modifications. Parts were either direct vendor delivery or stock
parts. Direct vendor delivery parts are fast-moving items that have many users, frequent
demand, and varying quantities, while stock parts are transactional in nature and require
lead time. DLA Aviation and Boeing established prices for each spare part when it was
initially added to the contract. These prices were then used throughout the duration of the
contract. As of June 26, 2012, DLA Aviation purchased nearly 2,300 spare parts on
SPM400-02-D-9407, valued at approximately $205.4 million. For example, DLA
Aviation purchased a Deceleration Parachute for the B-52, Stratofortress (see Figure 1).

                     Figure 1. B-52 with Deceleration Parachute




          Source: http://www.afrc.af.mil

Nonstatistical Audit Sample of Spare Parts
We reviewed 60 parts, valued at approximately $81.1 million. Our nonstatistical sample
included 30 parts with 70 delivery orders, valued at $19.7 million, for SPM4A1-09-G-
0004 and 30 parts with 2,589 delivery orders, valued at $61.4 million, for SPM400-02-D-
9407. Of the 30 parts reviewed for SPM400-02-D-9407, 21 parts were direct vendor
delivery parts, while the remaining 9 were stock parts. The delivery orders were issued
since March 16, 2009. See Appendix A for more detailed information on the
nonstatistical sample selection.


                             FOR OFFICIAL USE ONLY
                                       2
                              FOR OFFICIAL USE ONLY


Review of Internal Controls for DLA Aviation
Sole-Source Spare Parts Procurement
DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses for DLA Aviation purchases of sole-source spare parts from Boeing.
Specifically, DLA Aviation contracting officers did not conduct a fair and reasonable
price analysis. DLA Aviation guidance did not require contracting officers to obtain and
review contractor purchase order histories when determining fair and reasonable prices.
Additionally, DLA Aviation guidance did not require contracting officers to complete a
subsequent review of pricing for spare parts after the parts were initially placed on long-
term contracts. Finally, DLA Aviation contracting officers did not conduct adequate
contract oversight by verifying Boeing maintained contractor cost and pricing
documentation as required by the Federal Acquisition Regulation (FAR). We will
provide a copy of the report to the senior official responsible for internal controls at DLA.




                              FOR OFFICIAL USE ONLY
                                        3
                                     FOR OFFICIAL USE ONLY



Finding. Defense Logistics Agency Aviation
Did Not Negotiate Fair and Reasonable
Prices
DLA Aviation contracting officers did not negotiate fair and reasonable prices for sole-
source spare parts procured from Boeing on SPM4A1-09-G-0004 and SPM400-02-D-
9407, thereby not getting best value for the Government. We reviewed costs for 60 spare
parts on 2,659 delivery orders, valued at about $81.1 million, and identified pricing
problems with spare parts on 1,469 delivery orders, valued at $27.2 million. For the
1,469 delivery orders, pricing problems occurred because DLA Aviation contracting
officers did not conduct a fair and reasonable price analysis. In addition, DLA Aviation
guidance did not require contracting officers to:

       •    obtain and review contractor purchase order histories when determining fair and
            reasonable prices, or to
       •    complete a subsequent review of pricing for spare parts after the parts were
            initially placed on long-term contracts, as allowed by the contract.

Furthermore, Boeing did not maintain complete cost and pricing data for 20 delivery
orders, valued at $3.4 million because DLA Aviation contracting officers did not conduct
adequate contract oversight as required by the FAR.

As a result, DLA Aviation paid approximately $13.7 million in excess of fair and
reasonable prices for 1,469 delivery orders. Also, DLA Aviation may have made
payments in excess of the fair and reasonable price for an additional 20 delivery orders.
If prices are not corrected, DLA Aviation will continue to overpay on future sole-source
spare parts procured from Boeing on SPM4A1-09-G-0004 and SPM400-02-D-9407.

Criteria on Price Reasonableness and
Records Retention
FAR 15.402, “Pricing Policy,” January 3, 2012, 3 requires the contracting officer to
purchase supplies and services from responsible sources at fair and reasonable prices.

FAR 4.703, “Contractor Records Retention–Policy,” October 1, 2010, requires
contractors to make data available relating to contracts for 3 years after final payment.

FAR 15.403-3, “Requiring data other than certified cost or pricing data,”
October 1, 2010, states that the contracting officer shall obtain whatever data are
necessary to determine a fair and reasonable price, in acquisitions that do not require
certified cost or pricing data.



3
    The fair and reasonable price process was a requirement of the FAR throughout the scope of the audit.

                                     FOR OFFICIAL USE ONLY
                                               4
                              FOR OFFICIAL USE ONLY


Defense Federal Acquisition Regulation Supplement on Refunds
Defense Federal Acquisition Regulation Supplement (DFARS) 242.71, “Voluntary
Refunds,” November 9, 2005, states that a contracting officer can request a voluntary
refund from a contractor or subcontractor when they conclude that the contractor
overcharged and there is no contractual remedy available to recover the overpayment.

Existing Acquisition Procedures on Determining
Price Reasonableness
The DLA Aviation Acquisition Procedures (DAAP) Exhibit 15A-1, “Determining Price
Reasonableness,” July 15, 2009, states the following:

   •   The preferred techniques for performing price analysis is a comparison of
       proposed prices (competition), and/or a comparison of previously proposed prices
       and previous contract prices, with current proposed prices for the same or similar
       items.
   •   Average industry rates are to be used to establish an independent Government
       estimate. Use of these rates does not eliminate the need to determine reasonable
       material cost, labor hours, and profit rate.

DAAP 13.106-3(3), “Processing Proposed Awards at Other Than Fair and Reasonable
Prices,” July 23, 2009, states that awards could be processed at other than fair and
reasonable prices and instructs the acquisition specialist to document in the contract file
all the facts if attempts to determine the price fair and reasonable were unsuccessful.

DAAP 13.106-3, “Award and Documentation,” February 7, 2013, states that in most
instances, no award will be made unless the price is determined reasonable. Furthermore,
the determination that the price is reasonable must be accurately analyzed and completely
documented. If the acquisition specialist has expended all authorized actions and the
final price is not considered reasonable, the acquisition specialist shall elevate the issue to
one level above the contracting officer by documenting all actions taken on the proposed
award.

Ineffective Negotiation for Fair and Reasonable Prices
on Procured Spare Parts
DLA Aviation contracting officers did not negotiate fair and reasonable prices for sole-
source spare parts procured from Boeing on 1,469 delivery orders from SPM4A1-09-
G0004 and SPM400-02-D-9407, thereby not getting best value for the Government.
Specifically, for SPM4A1-09-G-0004, DLA Aviation overpaid for spare parts on four
delivery orders, valued at over $79,000, because DLA Aviation contracting officers did
not conduct a fair and reasonable price analysis. In addition, DLA Aviation overpaid for
spare parts on 477 delivery orders, valued at $14.2 million, because DLA Aviation
guidance did not require contracting officers to obtain and review contractor purchase
order histories when determining fair and reasonable prices. Finally, for SPM400-02-D-
9407, DLA Aviation overpaid for spare parts on 988 delivery orders, valued at
$13.0 million, because DLA Aviation guidance did not require contracting officers to

                              FOR OFFICIAL USE ONLY
                                        5
                              FOR OFFICIAL USE ONLY

complete a subsequent review of pricing for spare parts after the parts were initially
placed on long-term contracts, as allowed by the contract. In total, DLA Aviation paid
approximately $13.7 million in excess of fair and reasonable prices for the 1,469 delivery
orders. See Table 1 for a summary of issues identified within this report.

         (FOUO) Table 1. Summary of Issues Identified Within This Report
       Issue      Delivery   Total Delivery         Fair and        Difference
                   Orders     Order Value     Reasonable Price
 Fair and             4         $79,470              $26,849          $52,621
 Reasonable
 Price Analysis
 Not Conducted
 Guidance Did        477      14,196,377*           8,463,176       5,733,201*
 Not Require
 Purchase Order
 Reviews
 Guidance Did        988      12,957,509*          5,001,505*       7,956,004*
 Not Require
 Subsequent
 Reviews
 Total              1,469     $27,233,356         $13,491,530      $13,741,826
*Amounts differ from table totals below because of rounding.

Fair and Reasonable Price Analysis Not Conducted
 (FOUO) For SPM4A1-09-G-0004, DLA Aviation overpaid for spare parts on four
 delivery orders, valued at over $79,000, because DLA internal guidance allowed
 contracting officers to accept proposals without determining if DLA Aviation received a
 fair and reasonable price. FAR 15.402, “Pricing Policy,” January 3, 2012, requires the
 contracting officer to purchase supplies and services from responsible sources at fair and
 reasonable prices. However, DAAP Section 13.106-3(3), “Processing Proposed Awards
 at Other Than Fair and Reasonable Prices,” July 23, 2009, states that awards could be
 processed at other than fair and reasonable prices and instructs the acquisition specialist
 to document in the file any unsuccessful attempts to determine price reasonableness. For
 example, DLA Aviation contracting officers procured an AC-130U, Spooky Aircraft
                                                     (b)(4)
 Channel (NSN 1560014149771), from Boeing for                  . The DLA Aviation
 contracting officer recommended the award be made at the quoted price even though the
 contracting officer did not determine if the price was fair and reasonable. In this
 instance, the contracting officer documented that the item was a first-time buy, there were
 no known similar parts, and he did not obtain Boeing pricing information. We obtained
 Boeing’s purchase order history and determined the proposed price should have been
(b)(4)
         per unit, creating an overpayment of (b)(4)     . See Table 2 for the four delivery
 orders for which DLA Aviation did not conduct a fair and reasonable price analysis.




                              FOR OFFICIAL USE ONLY
                                        6
                             FOR OFFICIAL USE ONLY


     (FOUO) Table 2. Did Not Conduct Fair and Reasonable Price Analysis
      NSN       Delivery     Total Delivery     Fair and        Difference
                  Order        Order Value   Reasonable Price
                            (b)(4)
 1560014149771     0519
 1560014149771          0520
 1560014149771          0523
 5310005131881        WU1B
 Total                                $79,470              $26,849           $52,621
*Difference may not add up because of rounding.

(FOUO) As a result of not conducting fair and reasonable price determinations, DLA
Aviation made overpayments of $52,621. DFARS 242.71, “Voluntary Refunds,”
November 9, 2005, states that a contracting officer can request a voluntary refund from a
contractor or subcontractor when they conclude that the contractor overcharged. DLA
should direct DLA Aviation contracting personnel to assess and implement available
options to recover from Boeing overpayments made on the delivery orders, including
voluntary refunds in accordance with DFARS 242.71.

Management Actions to Improve Internal Guidance
DLA Aviation updated its internal guidance to coincide with FAR 15.402, “Pricing
Policy,” January 3, 2012, which no longer allows the processing of awards without
determining a fair and reasonable price. On October 3, 2011, DLA Aviation issued a
memorandum to prohibit contracting officers from awarding a contract unless the price is
determined reasonable. The DLA Aviation contracting officer will elevate the issue if the
acquisition specialist has expended all authorized actions and the final price is not
considered reasonable. The memorandum was incorporated into the updated DAAP
guidance re-issued on February 7, 2013, which requires contracting officers to process
only those awards that are determined fair and reasonable.

Guidance Did Not Require Purchase Order Reviews
(FOUO) DLA Aviation overpaid for spare parts on 477 delivery orders, valued at
$14.2 million, because DLA Aviation guidance did not require contracting officers to
                                   obtain and review contractor purchase order histories
    DLA Aviation overpaid for      when determining fair and reasonable prices.
   spare parts on 477 delivery     Specifically, for SPM4A1-09-G-0004, DLA Aviation
         orders, valued at         overpaid for spare parts on 15 delivery orders, valued
          $14.2 million.           at $3.9 million. DLA Aviation contracting officers
                                   performed a stand-alone price determination for each
delivery order awarded for SPM4A1-09-G-0004. DLA Aviation contracting officers
determined fair and reasonable prices by reviewing DLA purchase histories, industry




                             FOR OFFICIAL USE ONLY
                                       7
                                    FOR OFFICIAL USE ONLY

(FOUO) rates, certified cost and pricing data, 4 and other than certified cost and pricing
data but did not review Boeing’s past purchase order histories, resulting in overpayments.
For example, DLA Aviation overpaid               for two metal tube assemblies (NSN
4710012009179). DLA Aviation compared Boeing’s proposed price of                    per unit
to historical prices for the same part paid by DLA Aviation on a 2010 delivery order and
determined that Boeing’s proposed price was fair and reasonable. However, based on our
review of Boeing’s purchase order, DLA Aviation should have paid a unit price of
approximately            for the metal tube assemblies (See Figure 2).

                                 Figure 2. Metal Tube Assembly




             Source: DLA Customer Service

See Table 3 for 15 delivery orders associated with SPM4A1-09-G-0004, for which DLA
Aviation did not review contractor purchase order histories to obtain a fair and reasonable
price.

            (FOUO) Table 3. Did Not Review Contractor Purchase Orders
         NSN       Delivery     Delivery         Fair and        Difference
                    Order     Order Value    Reasonable Price
    1560003073077    3005
    1560003073077         WUOE
    1560006979577            3040
    1560011526469            4580



4
 FAR 2.101, “Definitions,” May 18, 2012, defines certified cost and pricing data as data that are certified
as accurate, complete, and current as of a date before contract award.

                                    FOR OFFICIAL USE ONLY
                                              8
                               FOR OFFICIAL USE ONLY


                                Figure 3. Bearing Sleeve




              Source: DLA Customer Service

See Table 4 for 462 delivery orders associated with SPM400-02-D-9407, for which
DLA Aviation did not review contractor purchase order histories to obtain a fair and
reasonable price.

         (FOUO) Table 4. Did Not Review Contractor Purchase Orders
      NSN        Delivery         Delivery      Fair and       Difference
                 Orders       Order Values     Reasonable
                                                 Prices
                           (b)(4)
 1560008641970     354
 1560010219966             3
 1560015196981            10
 3040002175211            42
 3040007115726            47
 3120015033394             6
 Total                  462         $10,247,843          $6,734,497         $3,513,345*
*Difference may not add up because of rounding.

DLA Aviation guidance did not require contracting officers to obtain and review
contractor purchase order histories, which is a form of other than certified cost and
pricing data, to determine fair and reasonable prices. FAR 15.403-3, “Requiring data
other than certified cost or pricing data,” October 1, 2010, states that the contracting
officer shall obtain whatever data are necessary to determine a fair and reasonable price,
in acquisitions that do not require certified cost or pricing data. DLA Aviation
consistently used previous contract prices rather than contractor purchase order histories
when determining if proposed prices were fair and reasonable.




                               FOR OFFICIAL USE ONLY
                                         10
                            FOR OFFICIAL USE ONLY


                        Figure 4. Control Surface Parts Kit




          Source: DLA Customer Service

See Table 5 for 988 delivery orders associated with SPM400-02-D-9407, for which DLA
Aviation did not conduct subsequent reviews to reduce overpayments.

            (FOUO) Table 5. Did Not Conduct Subsequent Reviews
      NSN       Delivery         Delivery     Fair and       Difference
                Orders       Order Values    Reasonable
                                               Prices
                          (b)(4)
 1560005622486     21
 1560015038326         71
 1560015501846         90
 1560015501857        130
 1560015514046        131
 1560015515325         91
 1560015650391          1
 1630011194832        393
 3040003045549         55
 5365010172099          1
 6220015323423          4
 Total                988       $12,957,510       $5,001,507        $7,956,002*
*Difference may not add up because of rounding.

                            FOR OFFICIAL USE ONLY
                                      12
                              FOR OFFICIAL USE ONLY

(FOUO) DLA Aviation guidance did not require contracting officers to complete a
subsequent review of pricing for spare parts after the parts were initially placed on
SPM400-02-D-9407. SPM400-02-D-9407 included a clause that allowed either DLA
Aviation or Boeing to renegotiate the price of spare parts. Specifically, section I84BA,
paragraphs A and B, state that the unit prices and the total price can be periodically re-
determined. DLA Aviation contracting officers could have conducted a price
redetermination each year of the contract. However, DLA Aviation contracting officers
did not complete subsequent reviews in order to determine whether the contractors
obtained better prices from suppliers. As a result, DLA Aviation purchased sole-source
spare parts resulting in overpayments of approximately $8.0 million. DLA should direct
DLA Aviation to assess and implement available options to recover from Boeing
overpayments made on the delivery orders, including voluntary refunds in accordance
with DFARS 242.71. DLA should also direct DLA Aviation contracting personnel to
renegotiate prices for the 11 spare parts associated with the 988 delivery orders for which
DLA Aviation overpaid as allowed by SPM400-02-D-9407. Additionally, DLA should
direct DLA Aviation to revise the DAAP to require contracting officers to complete
periodic reviews of contractor’s cost basis for spare parts purchased multiple times on a
long-term contract.

Maintaining Contractor Cost and Pricing Data
Boeing did not maintain complete cost and pricing data on spare parts for 20 delivery
orders, valued at $3.4 million, for SPM4A1-09-G-0004 and for 1,339 delivery orders,
valued at approximately $35.3 million, for SPM400-02-D-9407. DLA Aviation
contracting officers did not conduct adequate contract oversight of Boeing as required by
the FAR. The audit team requested cost and pricing data from Boeing for the 1,359
delivery orders. After 3 months, Boeing could not provide the requested documents.
Although Boeing was unable to provide the requested documentation, DLA Aviation was
able to provide Boeing cost and pricing data to the audit team for 1,339 delivery orders
for SPM400-02-D-9407. The audit team used the data to determine whether DLA
Aviation purchased sole-source spare parts at a fair and reasonable price. FAR 4.703,
“Contractor Records Retention–Policy,” October 1, 2010, requires contractors to make
data available relating to contracts for 3 years after final payment. However, DLA
Aviation contracting officers did not conduct adequate contract oversight by requiring
Boeing to retain contract documentation. As a result, DLA Aviation may have made
payments on the remaining 20 delivery orders in excess of a fair and reasonable price.
DLA should direct DLA Aviation contracting personnel conduct periodic evaluations of
contract files for long-term contracts to verify that the contractor maintained contract cost
and pricing data in accordance with FAR 4.703.

Management Actions by Boeing to Improve
Document Retention
As a result of the audit, Boeing issued “Contracts and Pricing Records Retention
Requirements,” December 4, 2012, which emphasized the need for Boeing officials to
maintain adequate contract documentation on long-term contracts as required by


                              FOR OFFICIAL USE ONLY
                                        13
                             FOR OFFICIAL USE ONLY


Recommendations, Management Comments, and Our
Response
We recommend the Director, Defense Logistics Agency:

       1. Direct Defense Logistics Agency Aviation contracting personnel to assess
and implement available options to recover from Boeing the overpayment of
approximately $13.7 million on 1,469 delivery orders, including voluntary refunds,
in accordance with DFARS 242.71.

Defense Logistics Agency Comments
The Director, DLA, Acquisition, partially agreed with the recommendation. DLA agreed
with requesting voluntary refunds on delivery orders written under basic ordering
agreement SPM4A1-09-G-0004 and contract SPM400-02-D-9407. Because all prices
were agreed to with the contractor and the basic ordering agreement was firm-fixed price,
in accordance with FAR 16.202, “Firm-Fixed-Price Contracts,” the contract price was not
subject to any adjustment on the basis of the contractor’s cost experience in performing
the contract. Under the contract, prices were fixed price with economic price adjustment,
and the basis for adjustment was the economic price adjustment clause. However, DLA
agrees to request a voluntary refund for the items where a fair and reasonable
determination was never made and for the items where the Boeing purchase order prices
were lower than the contract price. The estimated completion date is July 31, 2013.

Our Response
Although the Director, Defense Logistics Agency, Acquisition, only partially agreed, her
comments were responsive. The Director, DLA, Acquisition, agreed to request a
voluntary refund. No additional comments are required.

      2. Direct Defense Logistics Agency Aviation contracting personnel to
renegotiate prices for 17 spare parts (located in Tables 4 and 5) as allowed by
SPM400-02-D-9407.

Defense Logistics Agency Comments
The Director, DLA, Acquisition, partially agreed with the recommendation. During the
course of ordering under contract SPM400-02-D-9407, contract price adjustments were
made solely using the contract’s economic price adjustment clause and not the
prospective price readjustment clause. Although it was normal DLA Aviation practice to
include a price readjustment clause in similar corporate long-term contracts, it was
determined that it was not needed to properly adjust contract prices. The contracting
officer determined that the economic price adjustment clause provided the necessary and
appropriate basis for adjusting prices; however, this determination was not documented in
the contract file. DLA recognized that this is not a best practice and acknowledges that a
contract modification should have been used to remove 52.216-9G11, “Corporate
Contracting Price Redetermination,” from the contract. DLA will issue a modification to
remove 52.216-9G11, “Corporate Contracting Price Redetermination,” from the contract

                             FOR OFFICIAL USE ONLY
                                       15
                              FOR OFFICIAL USE ONLY

by June 28, 2013. Additionally, DLA agreed to request a voluntary refund for the items
where a fair and reasonable determination was never made and for the items where the
Boeing purchase order prices were lower than the contract price. The estimated
completion date is July 31, 2013.

Our Response
Although the Director, DLA, Acquisition, only partially agreed, her comments were
responsive. We recognize that SPM400-02-D-9407 included clauses I84BA 52.216-
9G11, “Corporate Contracting Price Redetermination,” and 52.216-9G44, “Economic
Price Adjustment,” for price adjustments. Section I84BA, paragraphs A and B, allowed
DLA Aviation contracting officers to conduct a price redetermination of the unit prices
and the total price each year of the contract. The Director DLA, Acquisition, stated that
DLA will issue a modification to remove 52.216-9G11, “Corporate Contracting Price
Redetermination,” from the contract because the contracting officer and the contractor
both understood that they would not use section I84BA for price adjustments. Although
DLA Aviation will remove the clause from the contract, the Director, DLA, Acquisition,
agreed to require contracting officers complete periodic reviews of the contractor’s cost
basis for spare parts purchased multiple times on a long-term contract. By completing
the reviews, DLA Aviation could renegotiate spare-part prices to receive fair and
reasonable prices. Therefore, no additional comments are required.

        3.a. Direct Defense Logistics Agency Aviation to revise “DLA Aviation
Acquisition Procedures” to require contracting officers to obtain and review
contractor purchase orders histories when determining fair and reasonable prices
for sole-source acquisitions.

Defense Logistics Agency Comments
The Director, DLA, Acquisition, partially agreed with the recommendation. DLA agreed
with updating the “DLA Aviation Acquisition Procedures,” to include requesting a
contractor’s purchase order history as a method of determining price reasonableness for
sole source contracts. This update will be in accordance with FAR 15.403-3, “Requiring
data other than certified cost and pricing data,” which outlines data the contracting officer
shall obtain when certified cost and pricing data are not required. The estimated
completion date is July 31, 2013.

Our Response
Although the Director, Defense Logistics Agency, Acquisition, only partially agreed, her
comments were responsive. The Director, DLA, Acquisition, agreed to update “DLA
Aviation Procedures” to include requesting a contractor’s purchase order history as a
method of determining price reasonableness for sole source contracts. No additional
comments are required.

        3.b. Direct Defense Logistics Agency Aviation to revise “DLA Aviation
Acquisition Procedures” to require contracting officers to complete periodic reviews
of the contractor’s cost basis for spare parts purchased multiple times on a long-
term contract.

                              FOR OFFICIAL USE ONLY
                                        16
                            FOR OFFICIAL USE ONLY



Defense Logistics Agency Comments
The Director, DLA, Acquisition, agreed with the recommendation, and stated that DLA
will revise, “DLA Aviation Acquisition Procedures,” to require contracting officers
complete periodic reviews of the contractor’s cost basis for spare parts purchased
multiple times on a long-term contract. The estimated completion date is July 31, 2013.

Our Response
Comments from the Director, DLA, Acquisition, were responsive, and no further
comments are required.

       4. Direct Defense Logistics Agency Aviation contracting personnel to
conduct periodic evaluations of contract files for long-term contracts to verify that
the contractor maintained contract cost and pricing data in accordance with
FAR 4.703, “Contractor Records Retention–Policy,” October 1, 2010.

Defense Logistics Agency Comments
The Director, DLA, Acquisition, agreed with the recommendation, and stated that DLA
will revise the DLA Aviation Acquisition Directive to include requirements of
FAR 4.703. The contract management plan will require the contractor submit their
contractor retention plan to the contracting officer. The estimated completion date is
July 31, 2013.

Our Response
Comments from the Director, DLA, Acquisition, were responsive, and no further
comments are required.




                            FOR OFFICIAL USE ONLY
                                      17
                             FOR OFFICIAL USE ONLY

               we reviewed price negotiation memorandums, small-purchase pricing
               memorandums, P-45 simplified acquisition pricing memorandums,
               briefing memorandums, contractor proposals, purchase histories, and
               additional documentation supporting cost and price analyses for the
               reviewed delivery orders. DLA Aviation provided Boeing’s cost and
               pricing data for 1,339 delivery orders for SPM400-02-D-9407.

           •   interviewed Boeing officials in St. Louis, Missouri, to identify their roles
               and responsibilities related to spare parts acquisitions, to identify their
               processes used to order spare parts on SPM4A1-09-G-0004 and
               SPM400-02-D-9407, and to obtain their cost estimate documentation.
               Specifically, we reviewed memorandums of agreements, memorandums of
               understanding, quotes, purchase orders, and other documentation to
               support spare part prices. Boeing did not maintain complete cost and
               pricing data on spare parts for 20 delivery orders, valued at $3.4 million,
               for SPM4A1-09-G-0004.

           •   reviewed DLA Aviation guidance to determine whether DoD followed
               applicable guidance when determining fair and reasonable prices for spare
               parts: DAAP 13.106-3(3), “Processing Proposed Awards at Other Than
               Fair and Reasonable Prices,” July 23, 2009; DAAP 13.106-3, “Award and
               Documentation,” February 7, 2013; and DAAP Exhibit 15A-1,
               “Determining Price Reasonableness,” July 15, 2009, October 29, 2010,
               and November 14, 2012. We also reviewed FAR 4.703, “Contractor
               Records Retention–Policy,” October 1, 2010; FAR 15.403-3, “Requiring
               data other than certified cost or pricing data,” October 1, 2010; FAR
               15.402, “Pricing Policy,” January 3, 2012; and FAR 2.101, “Definitions,”
               May 18, 2012.

Use of Computer-Processed Data
We assessed the reliability of EDA, Boeing’s Sustainment Pricing System and Electronic
Procurement Information Center and IHS Haystack Gold data by comparing systems
data, recalculating rates, and tracing system data to source documents. Specifically, we
used IHS Haystack Gold to identify unique spare parts and procurement history
associated with spare parts for SPM4A1-09-G-0004 and SPM400-02-D-9407. We
compared IHS Haystack Gold data to future demand data from the DLA Office of
Operations Research and Resource Analysis and delivery orders from EDA to select a
nonstatistical sample.
We used Boeing’s Sustainment Pricing System data to develop the fair and reasonable
price. The Sustainment Pricing System is used by Boeing to develop estimated costs for
proposals and includes unit costs and rates for each spare part. We compared its
estimated proposal costs for the sample spare parts to the proposals provided by DLA
Aviation. We also obtained Boeing’s purchase orders from the Electronic Procurement
Information Center identifying the actual price Boeing paid for the sampled spare parts.
We calculated the fair and reasonable price by applying Boeing rates to the actual unit
cost on Boeing’s purchase orders. We compared the fair and reasonable price to spare

                             FOR OFFICIAL USE ONLY
                                       19
                             FOR OFFICIAL USE ONLY

parts prices on delivery orders obtained from EDA. As a result of our analysis, we
determined that the data were sufficiently reliable for the purposes of this report.

Use of Technical Assistance
We consulted with the DoD OIG Quantitative Methods Division while determining our
nonstatistical audit sample.

Prior Coverage
During the last 5 years, the Government Accountability Office and DoD OIG issued
seven reports discussing the purchase of sole-source spare parts. Unrestricted
Government Accountability Office reports can be accessed over the Internet at
http://www.gao.gov. Unrestricted DoD OIG reports can be accessed at:
http://www.dodig.mil/audit/reports.

Government Accountability Office
GAO-10-469, “Defense Logistics Agency Needs to Expand on Efforts to more
Effectively Manage Spare Parts,” May 2010

DoD OIG
Report No. DODIG-2013-025, “Accountability Was Missing for Government Property
Procured on the Army’s Services Contract for Logistics Support of Stryker Vehicles,”
November 30, 2012
Report No. DODIG-2012-102, “Better Cost-Control Measures Are Needed on the
Army’s Cost-Reimbursable Services Contract for Logistics Support of Stryker Vehicles,”
June 18, 2012
Report No. DODIG-2012-004, “Changes Are Needed to the Army Contract With
Sikorsky to Use Existing DoD Inventory and Control Costs at the Corpus Christi Army
Depot,” November 3, 2011
Report No. D-2011-104, “Pricing and Escalation Issues Weaken the Effectiveness of the
Army Contract with Sikorsky to Support the Corpus Christi Army Depot,”
September 8, 2011
Report No. D-2011-061, “Excess Inventory and Contract Pricing Problems Jeopardize the
Army Contract with Boeing to Support the Corpus Christi Army Depot,” May 3, 2011
Report No. D-2008-048, “Procuring Noncompetitive Spare Parts Through an Exclusive
Distributor,” February 6, 2008




                             FOR OFFICIAL USE ONLY
                                       20
